  September 18, 2002




Acquisition
Procedures for Selecting Contractor
Personnel to Perform Maintenance
on Army Aircraft in Bosnia
(D-2002-150)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
         Additional Copies

         To obtain additional copies of this report, visit the Web site of the Inspector
         General of the Department of Defense at www.dodig.osd.mil/audit/reports or
         contact the Secondary Reports Distribution Unit of the Audit Followup and
         Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or
         fax (703) 604-8932.

         Suggestions for Future Audits

         To suggest ideas for or to request future audits, contact the Audit Followup and
         Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
         fax (703) 604-8932. Ideas and requests can also be mailed to:

                           OAIG-AUD (ATTN: AFTS Audit Suggestions)
                           Inspector General of the Department of Defense
                                 400 Army Navy Drive (Room 801)
                                     Arlington, VA 22202-4704

         Defense Hotline

         To report fraud, waste, or abuse, contact the Defense Hotline by calling
         (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
         by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
         The identity of each writer and caller is fully protected.




Acronyms
ACO                  Administrative Contracting Officer
CFT                  Contract Field Team
CID                  Criminal Investigation Division
FAR                  Federal Acquisition Regulation
IG DoD               Inspector General of the Department of Defense
PCO                  Procurement Contracting Officer
         Office of the Inspector General of the Department of Defense
Report No. D-2002-150                                            September 18, 2002
   (Project No. D2002CF-0091)

        Procedures for Selecting Contractor Personnel to Perform
               Maintenance on Army Aircraft in Bosnia

                                Executive Summary

Who Should Read This Report and Why? This report should be read by DoD
officials responsible for acquiring contract support services at overseas locations and
congressional members and staff who have an interest in DoD contracting for field
maintenance team support services.

Background. We performed this audit in response to a February 5, 2002, request
from the Chairman, Subcommittee on National Security, Veterans Affairs, and
International Relations, Committee on Government Reform, U.S. House of
Representatives, to examine DynCorp International’s suitability and capability to
perform and its procedures for selecting and screening personnel. The request to
conduct this audit was based on allegations made in a February 4, 2002, Insight
magazine article entitled “DynCorp Disgrace.” The article questioned the moral
integrity and technical skills of certain DynCorp employees working in Bosnia.

The Air Force competitively awarded one of four contracts, in a multiple award
procurement, to DynCorp International on October 1, 1997. The initial award amount
of the contract was $210 million. The purpose of the contract was to provide contract
field team maintenance support to any Federal agency for a period of 10 years. As of
April 9, 2002, 84 task orders valued at $828.9 million had been awarded to DynCorp
International under this contract. The Army used this contract for aircraft maintenance
in Bosnia. As of April 2002, aircraft maintenance valued at $42 million was expended
for Bosnia.

Results. DynCorp International had reasonable procedures for selecting and screening
its personnel and provided an acceptable level of maintenance support in Bosnia under
the DoD contract. DynCorp International:

   •   was not required by the contract or task orders to establish specific personnel
       hiring practices or conditions for employment;

   •   hired sufficient and qualified personnel, evaluated them for technical
       proficiency, and instructed them on proper conduct; and

   •   proved to be suitable and capable to perform the requirements of the contract.
DoD acquisition officials reviewed the contractor’s suitability and capability to perform
the contract during the source selection evaluation process and properly monitored
DynCorp International’s performance on the task orders for aircraft maintenance in
Bosnia. Contracting officials did not and, as a general rule, do not, address the moral
character of a contractor’s employees. In February 2002, DynCorp imposed additional
requirements not required under the contract on its overseas employees regarding
personnel behavior.

Management Comments. We provided a draft of this report on August 9, 2002. No
written response to this report was required, and none was received. Therefore, we are
publishing this report in final form.




                                            ii
Table of Contents

Executive Summary                             i

Background                                   1


Objectives                                   1

Discussion
     DynCorp Qualifications and Procedures   2

Appendixes
     A. Scope and Methodology
         Scope                                9
         Methodology                          9
         Prior Coverage                      10
     B. Army Investigation of DynCorp        11
     C. DynCorp Letter of Agreement          12
     D. Report Distribution                  13
Background
     Congressional Request. We performed the audit in response to a February 5,
     2002, request from the Chairman, Subcommittee on National Security, Veterans
     Affairs, and International Relations, Committee on Government Reform, U.S.
     House of Representatives. The Subcommittee was concerned by allegations
     contained in a February 4, 2002, Insight magazine article entitled “DynCorp
     Disgrace.” The article stated that DynCorp International (hereafter referred to
     as DynCorp) employees had engaged in perverse, illegal, and inhumane
     activities while performing maintenance on U.S. Army aircraft in Bosnia. The
     article further stated that several DynCorp employees were the subjects of an
     investigation by the U.S. Army Criminal Investigation Division (CID).
     DynCorp later fired these employees (see Appendix B). The audit examined the
     applicable DoD contract with DynCorp.

     Overview of DynCorp. For over 50 years, DynCorp, based in Reston,
     Virginia, has provided maintenance support to the U.S. Military through
     contract field teams (CFTs). A CFT is a group of maintenance personnel that
     perform maintenance and repair work on-site at Government locations
     throughout the world. In addition, the CFT support provides a mobile
     workforce of contractor personnel to respond to surge requirements worldwide.
     As of April 2002, 2,800 DynCorp employees were assigned to CFT support,
     with teams deployed at 65 different locations around the world.

     The Air Force awarded contract F34601-97-D-0422 to DynCorp in October
     1997 with a period of performance effective through September 2007.
     According to the statement of objectives for the contract, the CFT program was
     to provide supplemental on-site organizational, intermediate, and depot level
     maintenance support for modification, maintenance, and repair of various DoD
     weapons systems and associated support equipment for any Federal agency at
     both U.S. and overseas locations. The original contract award amount was
     $210 million. As of April 2002, 84 task orders, valued at $828.9 million, have
     been issued on the contract. Four of these 84 task orders provided Army
     aircraft maintenance support in Bosnia at a cost of about $42 million and were
     the focus of our audit.

Objectives
     Our objectives were to examine the procedures used by DoD acquisition
     officials in determining DynCorp’s suitability and capability to perform the
     requirements of the contract and to examine the procedures followed by
     DynCorp to screen and select personnel to perform aircraft maintenance in
     Bosnia. See Appendix A for a discussion of the audit scope and methodology.




                                        1
            DynCorp Qualifications and Procedures
            Prior to the award of the 1997 contract, DoD acquisition officials at the
            Oklahoma City Air Logistics Center properly determined that DynCorp
            was suitable and capable to perform the requirements outlined in the
            request for proposal to provide aircraft maintenance. For each of the
            four task orders that DynCorp received under the contract to perform
            Army aircraft maintenance in Bosnia, DynCorp has provided qualified
            employees and received satisfactory performance ratings. In February
            2002, DynCorp imposed additional requirements not required under the
            contract on its overseas employees regarding personnel behavior.

Criteria
     Responsible Contractors. Federal Acquisition Regulation (FAR)
     Subpart 9.1, “Responsible Prospective Contractors,” requires that prospective
     contractors have a satisfactory performance record as well as a satisfactory
     record of integrity and business ethics. It states that contracts shall be awarded
     only to responsible prospective contractors and no awards shall be made unless
     the contracting officer makes an affirmative determination of responsibility.

     Multiple Award Contracts. FAR 16.505(b), “Orders Under Multiple Award
     Contracts,” states that the contracting officer must provide each awardee a fair
     opportunity to be considered for each task order exceeding $2,500, unless one
     of four exceptions are met:

        •   the agency need is urgent and providing a fair opportunity would result
            in unacceptable delays;

        •   only one awardee is capable of providing a unique or highly specialized
            service;

        •   the order must be awarded on sole-source basis in the interest of
            economy and efficiency as a logical follow-on to an order already issued
            under the contract; or

        •   it is necessary to place an order to satisfy a minimum guarantee.

     Source Selection. FAR 15.305(a), “Proposal Evaluation,” requires a technical
     evaluation of all contract proposals. Evaluations may be conducted using any
     rating method or combination of methods and the relative strengths,
     deficiencies, significant weaknesses, and risks supporting proposal evaluations
     shall be documented in the contract file. The evaluations shall include past
     contractor performance.




                                          2
DynCorp Contract and Task Order Award Procedures
    DynCorp’s Contract Proposal. DynCorp was one of nine contractors that
    provided a proposal to the Air Force for the 1997 CFT maintenance contract.
    The solicitation provided definitions of skill classification requirements
    consistent with the Department of Labor’s Register of Wage Determinations
    issued under the Service Contract Act. However, the Air Force solicitation,
    sent to all contractors, did not address moral responsibilities or personal
    character of each employee working on the contract.

    Contract Selection Procedures. The Air Force awarded contract
    F34601-97-D-0422 to DynCorp in October 1997. It was one of four contracts
    in the multiple award procurement for CFT maintenance services. The source
    selection evaluation team for the contracts was comprised of Army, Navy, Air
    Force and Defense Contract Management Agency personnel with expertise in
    three specialized contracting areas: technical evaluation, contract and cost, and
    performance risk assessment. The criteria used by the evaluation team to rank
    the offerors included, in the order of importance:

       •   management:

               -   organization and administration management,

               -   personnel management,

               -   program management; and

       •   quality, safety, and security programs.

    Although price evaluations were completed for reasonableness of an offer, price
    was considered secondary to the listed criteria. Contractor past performance
    was independently reviewed. Moral character and technical license
    certifications of contractor employees were not factors considered by the
    evaluation team.
    Although DynCorp was ranked seventh out of the nine proposals regarding cost,
    it met or exceeded all technical and performance related selection criteria used
    to award the contract. The Air Force stated that it was in the “Government’s
    best interest to pay for proven management, and DynCorp has proposed, and
    has proven in the past, to provide reliant and efficient management.”
    Furthermore, the Air Force justified selecting DynCorp because 80 percent of
    the employees on the prior contract had multiple aircraft maintenance skills,
    which provided efficiency and cost savings when CFT tasking required multiple
    aircraft maintenance skills.

    Contract Award Procedures. Between 1997 and 2007, the expected value of
    the multiple award procurement is $4.1 billion. As of April 2002, 363 task
    orders, valued at $1.9 billion, were awarded to the 4 contractors. DynCorp was


                                        3
    awarded 84 of the 363 task orders, valued at $828.9 million. DynCorp was
    awarded four task orders, on a time and materials basis, for maintenance
    support that entailed sending maintenance teams to Germany, Italy, Turkey,
    Macedonia, Kosovo, and Bosnia, for the period from December 1997 through
    April 2002. DynCorp was selected over the three other contractors because of
    prior experience and a satisfactory record of past performance, even though it
    did not have the lowest cost. As of April 2002, the ceiling amount for the four
    task orders totaled over $85.5 million, of which over $42 million was allocated
    to aircraft maintenance in Bosnia.

DynCorp Suitability to Perform Aircraft Maintenance
    We analyzed personnel history files for 70 DynCorp employees that were
    employed in Bosnia in May 2000 (the time addressed in the Insight article) and
    were employed in Bosnia in March 2002. We determined each employee’s start
    date, prior military experience, date and type of military discharge, background
    investigations, and summaries of performance ratings. We also obtained
    information on which employees had earned aviation maintenance technical
    proficiency licenses.

    DynCorp Employee Experience. The following chart summarizes the years of
    employment experience of DynCorp contractor personnel assigned in Bosnia.


                            Length of Employment


                                       24 (34%)
                                                  0 - 5 Years
               32 (46%)
                                                  6 - 10 Years
                                                  10 + Years

                                   14 (20%)




    DynCorp assigned an experienced workforce in Bosnia. About 66 percent
    (46 of the 70) of the assigned personnel had more than 6 years of aircraft
    maintenance experience with DynCorp in addition to their prior civilian and
    military experiences.

    Military Experience. Of the 70 employees, 67 had prior military experience,
    which we were able to verify with the Defense Manpower Data Center and the
    Army Reserve Personnel Command. Of the 67 DynCorp employees with prior
    military experience, 57 had been assigned Military Occupational Specialties that
    involved aircraft maintenance. The remaining 10 employees either had prior
    military experience with Army armored vehicle maintenance, logistics, or
    chemical operations, or were senior noncommissioned officers.

                                        4
    Prior Investigations. DynCorp was not required to conduct any type of
    background investigation for its employees. We requested background
    information and reviewed case files for the 70 DynCorp employees. Of the
    70 DynCorp employees, 28 employees were the subject of 40 investigations
    listed in the Defense Clearance and Investigation Index. Twenty-seven of the
    40 investigations occurred while the individuals were serving on active duty.
    The remaining 13 investigations occurred when the individuals were not in
    military service. Four of the 40 investigations resulted in court convictions and
    the remaining 36 investigations resulted in a form of nonjudicial or
    administrative punishment. We were able to obtain military discharge
    information on 22 of the 28 DynCorp employees involved in these
    investigations. Twenty-one of the 22 employees received honorable discharges;
    the remaining employee received a discharge other than honorable.
    Performance Ratings. Of the 70 DynCorp employees reviewed, 67 received a
    total of 757 performance reviews from 1978 to 2002. Only one of the
    757 reviews did not meet the established requirements for satisfactory
    performance. This employee received an unsatisfactory review during the 1988-
    1989 review period (his very first appraisal) for an issue unrelated to aircraft
    maintenance (damage to a Government vehicle). Subsequently, this employee
    received 20 consecutive satisfactory reviews. The remaining three employees
    were not employed with DynCorp long enough to receive a performance review.

    Licensed Technical Proficiency. DynCorp personnel history files for the
    70 employees showed that 27 employees had earned a Federal Aviation
    Administration license and 5 employees had earned a Federal Communications
    Commission license. Through a review of the personnel history files and the
    on-line Federal Aviation Administration database, we verified that 24 employees
    earned an Airframe and Powerplant license; 2 employees earned an Airframe
    license and 1 employee earned an Aircraft Instruments license. Attaining
    licensed technical proficiency was not a requirement under the contract to hold
    an aircraft maintenance position with DynCorp in Bosnia.

DynCorp Performance
    DynCorp Performance on Task Orders. According to the Procurement
    Contracting Officer (PCO), the Administrative Contracting Officer (ACO), the
    Theater Project Officer, and an Army Production Control Officer in Bosnia,
    DynCorp satisfactorily performed the four task orders. When awarding the
    second task order, the PCO stated that DynCorp performed in an outstanding
    manner on the previous task order, worked well with the ever-changing
    deployments, and was selected based on customer satisfaction.

    The ACO at the Defense Contract Management Agency, Dayton, Ohio,
    monitored the performance of all task orders under this contract. The Theater
    Project Officer in Germany provided monthly performance reports to the ACO
    for each task order, which included performance in Bosnia. For calendar year



                                        5
     2000, the 12 monthly performance reports stated that DynCorp had performed
     satisfactorily on the contract, and its employees were competent and qualified.

     We requested that the Aviation Intermediate Maintenance Production Control
     Officer in Charge currently in Bosnia provide additional evidence of satisfactory
     performance by DynCorp. On April 26, 2002, the Officer in Charge provided
     the following in a written statement:
                “DynCorp employees have consistently shown technical proficiency
                in their assigned tasks. So much so that I have tried to have TF 1-25
                maintenance personnel work with DynCorp personnel when the
                situation allows, to further improve their MOS [Military Occupational
                Specialty] proficiency.”

     He also stated that there was no indication of incompetence or negligence on any
     aircraft worked on by DynCorp personnel in Bosnia.

Selection and Screening of Personnel
     Personnel Selection. Although contract F34601-97-D-0422 and the task orders
     do not contain specific clauses or requirements on personnel selection
     procedures, DynCorp had established personnel skill requirements to meet the
     specific needs of the task orders. DynCorp then filled the requirements with
     employees who met the defined skill classifications established in the contract,
     which were consistent with the Department of Labor’s Register of Wage
     Determinations issued under the Service Contract Act.

     Personnel Screening. Although the contract contains a security requirements
     clause, the task orders did not require DynCorp employees to have access to
     confidential, secret, or top-secret information, or to have a DoD security
     clearance. According to DynCorp officials, Army personnel remove all
     classified equipment from the aircraft prior to DynCorp employees performing
     maintenance.

     DynCorp officials further stated that although reference checks were a part of
     DynCorp Standard Operating Practices, “conducting an [employee] reference
     check was not considered a requirement of the CFT contract.” Therefore,
     DynCorp did not verify employee references or prior military service records
     (which would verify years of experience with specific maintenance work). The
     DynCorp recruiting manager stated that DynCorp would conduct background
     checks, including checks of any prior criminal activity or credit ratings, only if
     such a requirement existed in the contract.

     Filling Contractor Employee Requirements. When DynCorp receives a task
     order with specific work requirements, it initially solicits its qualified employees
     to fill the needed positions. If sufficient DynCorp employees do not volunteer,
     DynCorp reviews employment databases to find prospective employees. Each
     prospective employee is interviewed to assess skill and experience qualifications
     and to determine if they possess the skills required by the contract. The
     prospective employee is hired contingent on passing a drug test. The
                                             6
prospective employee is then provided a detailed history of DynCorp and
required to attend a briefing on company employment policies. DynCorp
informs prospective employees that they have a 90-day probationary period from
the start of employment. Continued employment with DynCorp will be based
on demonstrated ability to perform assigned duties.

Standards of Conduct. All DynCorp employees receive a briefing outlining
the expected standards of conduct. Employees are briefed on and required to
sign the DynCorp “Standards and Conditions of Employment,” which includes
definitions of misconduct, fraud, and dishonesty. DynCorp employees also
receive a copy of the “Standards of Business Ethics and Conduct” brochure, and
sign a pledge to comply with the ethical standards expected of all employees.
Each employee reaffirms this pledge on an annual basis by resigning it.
Overseas Employment. When DynCorp assigns employees overseas, they are
required to comply with additional standards of conduct. The DynCorp
“Employment Agreement – Foreign Service” requires each DynCorp employee
to be subject to the standard operating procedures of DynCorp, and the laws and
regulations of the United States, the Department of Defense, and the country
and its political subdivision where the services will be performed.

DynCorp Actions Subsequent to the Insight Article. In February 2002,
DynCorp began requiring employees assigned overseas to sign an additional
letter of agreement. The letter of agreement acknowledges that the following
activities are considered illegal by the international community and are immoral,
unethical, and strictly prohibited:

   •   any unauthorized involvement in the trafficking of persons;

   •   unauthorized frequenting of locations known to be involved with
       prostitution or the trafficking of persons;

   •   any involvement with the soliciting of persons for the purpose of
       engaging in sexual acts;

   •   any participation in sexual activity in exchange for any monetary or other
       form of consideration; and

   •   the purchase or possession of illegal weapons.

This letter of agreement requires each DynCorp employee to notify DynCorp
management of any employee engaging in such activities. In addition, the letter
of agreement states that:
           “Any violation of this Letter of Agreement is grounds for termination
           in accordance with the Terminations Clause of the Foreign Service
           Agreement, including repatriation, and prosecution in accordance with
           applicable local, international and U.S. law.”




                                        7
   We verified that all DynCorp employees assigned in Bosnia as of
   March 29, 2002, had signed the agreement. See Appendix C for the letter of
   agreement.

   Off-Limits Establishments. As of March 2002, DynCorp also placed
   234 business establishments in Bosnia off-limits to all of its employees.
   DynCorp officials stated that the establishments were known or suspected places
   that engage in prostitution or in the trafficking of women. DynCorp
   management warned its employees that they should not visit the establishments,
   or they would be subject to immediate dismissal. The International Police Task
   Force patrolled the off-limit establishments, and was instructed to inform
   DynCorp management of any DynCorp employees visiting the off-limit
   establishments.

Summary
   DoD acquisition officials adequately appraised the suitability and capability of
   DynCorp to perform the requirements of the October 1997 CFT contract.
   DynCorp was selected for this contract based on its management ability, quality
   of its work, and past performance. To meet the requirements of the specific
   task orders under the CFT contract, DynCorp hired technically proficient
   personnel to perform the required maintenance work in Bosnia. These
   employees were qualified and were thoroughly informed of DynCorp terms of
   employment and standards of conduct. In light of the incident in Bosnia,
   DynCorp has taken a proactive approach to maintain the professional and ethical
   standards of employees.




                                      8
Appendix A. Scope and Methodology

Scope
    Work Performed. We reviewed the issues concerning DynCorp’s suitability
    and capability to perform and contractor screening procedures for selecting
    personnel raised in the congressional request. We interviewed personnel at
    Headquarters, Defense Contract Management Agency; the Oklahoma City Air
    Logistics Center; and the DynCorp International office in Fort Worth, Texas.
    We analyzed the files for contract F34601-97-D-0422 and task orders 6, 39, 59,
    and 82, which related to aircraft maintenance work in Bosnia. We reviewed the
    “Project Officer’s Evaluation of Contractor Performance” reports from 2000 to
    2002 maintained by the ACO at the Defense Contract Management Agency.
    We also reviewed DynCorp personnel history files and standard operating
    procedures for recruiting, ethics, and overseas employment. We verified
    selected data obtained from the personnel history files with the on-line Federal
    Aviation Administration database and with the Army Reserve Command in
    St. Louis, Missouri, and the Defense Manpower Data Center.

    Limitations to Scope. The scope of the audit was limited to the issues
    addressed in the congressional request. We did not review the management
    control procedures at the Oklahoma City Air Logistics Center.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the DoD Contract Management high-risk area.

Methodology
    Use of Computer-Processed Data. We used computer-processed data to verify
    information provided in the personnel history files of 70 DynCorp employees
    and to obtain background investigation information. We used the DynCorp
    personnel history files and the on-line Federal Aviation Administration database
    to verify licenses earned by 27 DynCorp employees. We verified prior military
    experience of DynCorp employees with the Defense Manpower Data Center and
    the Army Reserve Personnel Command databases. We also obtained prior
    investigation information for the 70 DynCorp employees using the Defense
    Central Index of Investigations database that was provided by the Defense
    Criminal Investigative Service. We did not assess the reliability of the data
    received from these databases. However, not assessing the reliability of this
    data did not materially affect the results of this audit.




                                        9
    Audit Dates and Standards. We performed the audit from March 2002
    through July 2002 in accordance with generally accepted government auditing
    standards except for the scope limitation discussed above.

    Contacts During the Audit. We visited or contacted the contractor and
    individuals and organizations within DoD.

Prior Coverage
    During the last 5 years, the Inspector General of the Department of Defense, the
    Army Audit Agency, and the Inspector General of the Department of State have
    issued five reports relating to this subject.


    Inspector General of the Department of Defense (IG DoD)

    IG DoD Report No. D-2001-189, “Multiple Award Contracts for Services,”
    September 30, 2001

    IG DoD Report No. 99-116, “DoD Use of Multiple Award Task Order
    Contracts,” April 2, 1999



    Army

    Army Audit Agency Report No. AA 00-210, “Contracts for Maintenance of
    Tactical Equipment in the Field – U.S. Army, Europe and Seventh Army, ”
    April 4, 2000

    Army Audit Agency Report No. AA 00-199, “Contracts for Field-Level
    Maintenance on Tactical Equipment – 101st Airborne Division (Air Assault) and
    Fort Campbell, KY,” March 14, 2000



    U.S. Department of State

    Inspector General of the Department of State Report No. AUD/PPA-02-20,
    “Review of U.S. Support to the International Police Task Force in Bosnia,”
    March 2002




                                       10
Appendix B. Army Investigation of DynCorp
   On May 1, 2000, the U.S. Army CID was notified that several DynCorp
   employees had purchased women from local brothels that were residing with
   them for sexual and domestic purposes. Numerous employees were accused of
   the trafficking of persons and the possession of illegal weapons.

   The U.S. Army CID obtained sworn statements from seven DynCorp employees
   and obtained permission to search the property of four individuals. A videotape
   was turned over as evidence against a DynCorp employee who was involved in
   the alleged acts. The U.S. Army CID investigation concluded that it had
   established probable cause that two employees committed illegal offenses. The
   investigation stated that the statutes applicable in this case were:

      •   Article 228, Criminal Code of the Federation of Bosnia-Herzegovina:
          Procuring and Pandering; and

      •   Article 348, Criminal Code of the Federation of Bosnia-Herzegovina:
          Illicit Possession of Weapons.

   On June 17, 2000, the Report of Investigation was referred to the Zivinice
   Police Department, Zivinice, Bosnia-Herzegovina, who assumed jurisdiction.
   We could not obtain information that any actions were taken by the Bosnian
   government. However, based upon the evidence obtained from the CID
   investigation, DynCorp fired the two individuals.




                                     11
Appendix C. DynCorp Letter of Agreement




                     12
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense for Personnel and Readiness
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army
Commander, U.S. Army Criminal Investigation Command

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations

Director, Defense Contract Management Agency

Non-Defense Federal Organization

Office of Management and Budget




                                          13
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
       Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
       Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
       Government Reform




                                         14
Team Members
   The Contract Management Directorate, Office of the Assistant Inspector
   General for Auditing of the Department of Defense prepared this report.
   Personnel of the Office of the Inspector General of the Department of Defense
   who contributed to the report are listed below.

   Garold E. Stephenson
   Terry L. McKinney
   Nicholas E. Como
   John A. Seger
   Gwynne M. Roberts
   Julie A. Yerkes
   Lisa C. Rose-Pressley




                                     15
